EDTN

Judgment in a Criminal Case (Rev. 3/04)
Sheet 1

United States District Court
Eastern District of Tennessee
UNITED STATES OF AMERICA
v.
VICENTE CORONA

JUDGMENT IN A CRIMINAL CASE
(For Offenses Committed On or After November 1, 1987)
Case Number:

3:05-CR-148

Stephen Ross Johnson
Defendant’s Attorney

THE DEFENDANT:
[]
[]
[T]

pleaded guilty to count(s):
pleaded nolo contendere to count(s)
which was accepted by the court.
was found guilty on count(s) 1,2,3,4, and 5 of the Indictment after a plea of not guilty.

ACCORDINGLY, the court has adjudicated that the defendant is guilty of the following offense(s):

Title & Section

Date Offense
Concluded

Nature of Offense

Count
Number(s)

See next page.

The defendant is sentenced as provided in pages 2 through 7 of this judgment and the Statement of Reasons. The sentence is
imposed pursuant to the Sentencing Reform Act of 1984 and 18 U.S.C. §3553.
[]

The defendant has been found not guilty on count(s)

[]

Count(s)

.

[] is [] are dismissed on the motion of the United States.

IT IS ORDERED that the defendant shall notify the United States Attorney for this district within 30 days of any change of
name, residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid.
If ordered to pay restitution, the defendant shall notify the court and the United States attorney of any material change in the
defendant’s economic circumstances.
March 5, 2010
Date of Imposition of Judgment

s/Thomas W. Phillips
Signature of Judicial Officer

THOMAS W. PHILLIPS, United States District Judge
Name & Title of Judicial Officer

March 5, 2010
Date

Case 3:05-cr-00148-TWP-HBG Document 574 Filed 03/05/10 Page 1 of 7 PageID #: 4115

1

EDTN Judgment in a Criminal Case (Rev. 3/04)
Sheet 1 — Reverse
Judgment - Page 2 of 7

DEFENDANT:
CASE NUMBER:

VICENTE CORONA
3:05-CR-148

ADDITIONAL COUNTS OF CONVICTION
Date Offense
Concluded

Count
Number(s)

Conspiracy to Distribute and Possess With Intent
to Distribute Five Kilograms or More of Cocaine
Hydrochloride and Marijuana

January 7, 2006

1

18 U.S.C. §§ 1956(a)(1)(A)(i)
and 1956(h)

Conspiracy to Commit Money Laundering

January 7, 2006

2

21 U.S.C. §§ 841(a)(1) and
841(b)(1)(A) and Title 18 U.S.C. § 2

Aiding and Abetting the Distribution of Five or
May 6, 2005
More Kilograms of Cocaine Hydrochloride and Marijuana

3

21 U.S.C. §§ 841(a)(1)

Aiding and Abetting the Distribution of Five or More
Kilograms of Cocaine Hydrochloride

May 26, 2005

4

21 U.S.C. §§ 841(a)(1), 841(b)(1)(A), Aiding and Abetting the Distribution of Five or More
and Title 18 U.S.C. § 2
Kilograms of Cocaine Hydrochloride

June 17, 2005

5

Title & Section

Nature of Offense

21 U.S.C. §§ 846 and 841(a)(1)

Case 3:05-cr-00148-TWP-HBG Document 574 Filed 03/05/10 Page 2 of 7 PageID #: 4116

2

EDTN Judgement in a Criminal Case (Rev. 3/04)
Sheet 2 — Imprisonment
Judgment - Page 3 of 7

DEFENDANT:
CASE NUMBER:

VICENTE CORONA
3:05-CR-148

IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for a total term of
Life .

This term of imprisonment consists of terms of Life as to each of Counts One, Three, Four, and Five, and 240 months as to Count Two, to
run concurrent.

[T]

The court makes the following recommendations to the Bureau of Prisons:
The Court will recommend that the defendant receive 500 hours of substance abuse treatment from the BOP Institution Residential Drug
Abuse Treatment Program.

Furthermore, the court recommends that the defendant be placed in a BOP Facility located in Southern California, and that the
defendant receive credit for all time served while in federal custody.
[T]

The defendant is remanded to the custody of the United States Marshal.

[]

The defendant shall surrender to the United States Marshal for this district:
[] a.m. [] p.m. on
.
[ ] at
[ ] as notified by the United States Marshal.

[]

The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
.
[ ] before 2 p.m. on
[ ] as notified by the United States Marshal.
[ ] as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:

Defendant delivered on
at

to
, with a certified copy of this judgment.

UNITED STATES MARSHAL

By
DEPUTY UNITED STATES MARSHAL

Case 3:05-cr-00148-TWP-HBG Document 574 Filed 03/05/10 Page 3 of 7 PageID #: 4117

3

EDTN Judgment in a Criminal Case (Rev. 3/04)
Sheet 3 — Supervised Release
Judgment - Page 4 of 7

DEFENDANT:
CASE NUMBER:

VICENTE CORONA
3:05-CR-148

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of ten years .
This term consists of a term of ten years as to Counts One, Three, Four, and Five, and three years as to Count Two, all such terms to run
concurrently.
The defendant shall report to the probation office in the district to which the defendant is released within 72 hours of release from the custody of the
Bureau of Prisons.
The defendant shall not commit another federal, state, or local crime.
The defendant shall not illegally possess a controlled substance. The defendant shall refrain from any unlawful use of a controlled substance. The
defendant shall submit to one drug test within 15 days of release from imprisonment and at least two periodic drug tests thereafter, as determined by
the court.
[]

The above drug testing condition is suspended, based on the court's determination that the defendant poses a low risk of future substance
abuse. (Check, if applicable.)

[T]

The defendant shall not possess a firearm, destructive device, or any other dangerous weapon. (Check, if applicable.)

[T]

The defendant shall cooperate in the collection of DNA as directed by the probation officer. (Check, if applicable.)

[]

The defendant shall register with the state sex offender registration agency in the state where the defendant resides, works, or is a student, as
directed by the probation officer. (Check, if applicable.)

[]

The defendant shall participate in an approved program for domestic violence. (Check, if applicable.)

If this judgment imposes a fine or a restitution obligation, it shall be a condition of supervised release that the defendant pay any such fine or
restitution that remains unpaid at the commencement of the term of supervised release in accordance with the Schedule of Payments set forth in the
Criminal Monetary Penalties sheet of this judgment.
The defendant shall comply with the standard conditions that have been adopted by this court (set forth below). The defendant shall also comply
with the additional conditions on the attached page.

STANDARD CONDITIONS OF SUPERVISION
1)
2)
3)
4)
5)
6)
7)
8)
9)
10)
11)
12)
13)

the defendant shall not leave the judicial district without permission of the court or probation officer;
the defendant shall report to the probation officer and shall submit a truthful and complete written report within the first five days of each
month;
the defendant shall answer truthfully all inquiries by the probation officer and follow the instructions of the probation officer;
the defendant shall support his or her dependants and meet other family responsibilities;
the defendant shall work regularly at a lawful occupation, unless excused by the probation officer for schooling, training, or other acceptable
reasons;
the defendant shall notify the probation officer at least ten days prior to any change in residence or employment;
the defendant shall refrain from excessive use of alcohol and shall not purchase, possess, use, distribute, or administer any controlled
substance or any paraphernalia related to any controlled substances, except as prescribed by a physician;
the defendant shall not frequent places where controlled substances are illegally sold, used, distributed, or administered;
the defendant shall not associate with any persons engaged in criminal activity and shall not associate with any person convicted of a felony,
unless granted permission to do so by the probation officer;
the defendant shall permit a probation officer to visit him or her at any time at home or elsewhere and shall permit confiscation of any
contraband observed in plain view of the probation officer;
the defendant shall notify the probation officer within seventy-two hours of being arrested or questioned by a law enforcement officer;
the defendant shall not enter into any agreement to act as an informer or a special agent of a law enforcement agency without the permission
of the court;
as directed by the probation officer, the defendant shall notify third parties of risks that may be occasioned by the defendant's criminal record
or personal history or characteristics and shall permit the probation officer to make such notifications and to confirm the defendant's
compliance with such notification requirement.

Case 3:05-cr-00148-TWP-HBG Document 574 Filed 03/05/10 Page 4 of 7 PageID #: 4118

4

EDTN Judgment in a Criminal Case (Rev.3/04)
Sheet 3A - Supervised Release
Judgment - Page 5 of 7

DEFENDANT:
CASE NUMBER:

VICENTE CORONA
3:05-CR-148

SPECIAL CONDITIONS OF SUPERVISION
1.

The defendant shall participate in a program of testing and/or treatment for drug and/or alcohol abuse, as directed by the
probation officer, until such time as he is released from the program by the probation officer.

Case 3:05-cr-00148-TWP-HBG Document 574 Filed 03/05/10 Page 5 of 7 PageID #: 4119

5

EDTN Judgment in a Criminal Case (Rev.3/04)
Sheet 5 — Criminal Monetary Penalties
Judgment — Page 6 of 7

DEFENDANT:
CASE NUMBER:

VICENTE CORONA
3:05-CR-148

CRIMINAL MONETARY PENALTIES
The defendant shall pay the following total criminal monetary penalties in accordance with the schedule of payments set forth on
Sheet 6. The assessment is ordered in accordance with 18 U.S.C. § 3013.

Totals:

Fine
$

Assessment
$ 500.00

Restitution
$

[]

The determination of restitution is deferred until . An Amended Judgment in a Criminal Case (AO 245C) will be entered after
such determination.

[]

The defendant shall make restitution (including community restitution) to the following payees in the amounts listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless specified
otherwise in the priority order or percentage payment column below. However, if the United States is a victim, all other victims,
if any, shall receive full restitution before the United States receives any restitution, and all restitution shall be paid to the victims
before any restitution is paid to a provider of compensation, pursuant to 18 U.S.C. §3664.

Name of Payee

TOTALS:

[]

*Total
Amount of Loss

Amount of
Restitution Ordered

$

Priority Order
or Percentage
of Payment

$

If applicable, restitution amount ordered pursuant to plea agreement $
The defendant shall pay interest on any fine or restitution of more than $2500, unless the fine or restitution is paid in full before
the fifteenth day after the date of judgment, pursuant to 18 U.S.C. §3612(f). All of the payment options on Sheet 6 may be
subject to penalties for delinquency and default, pursuant to 18 U.S.C. §3612(g).

[]

The court determined that the defendant does not have the ability to pay interest, and it is ordered that:
[ ] The interest requirement is waived for the [ ] fine and/or
[ ] The interest requirement for the

[ ] fine and/or

[ ] restitution.

[ ] restitution is modified as follows:

* Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18, United States Code, for offenses committed on or after
September 13, 1994 but before April 23, 1996.

Case 3:05-cr-00148-TWP-HBG Document 574 Filed 03/05/10 Page 6 of 7 PageID #: 4120

6

EDTN Judgment in a Criminal Case (Rev. 3/04
Sheet 6 — Schedule of Payments
Judgment — Page 7 of 7

DEFENDANT:
CASE NUMBER:

VICENTE CORONA
3:05-CR-148

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties shall be due as follows:
A

[T] Lump sum payment of $ 500.00 due immediately, balance due
[ ] not later than , or
[ ] in accordance with [ ] C, [ ] D, or [ ] E or [ ] F below; or

B

[]

Payment to begin immediately (may be combined with [ ] C, [ ] D, or [ ] F below); or

C

[]

(e.g., equal, weekly, monthly, quarterly) installments of $
Payment in
(e.g., 30 or 60 days) after the date of this judgment; or

over a period of

(e.g., months or years), to commence

D

[]

(e.g., equal, weekly, monthly, quarterly) installments of $ over a period of
Payment in
(e.g., 30 or 60 days) after release from imprisonment to a term of supervision; or

(e.g., months or years), to commence

E

[]

Payment during the term of supervised release will commence within 1 (e.g., 30 or 60 days) after release from imprisonment. The court
will set the payment plan based on an assessment of the defendant's ability to pay at that time; or

F

[]

Special instructions regarding the payment of criminal monetary penalties:

Unless the court has expressly ordered otherwise, if this judgment imposes a period of imprisonment, payment of criminal monetary penalties is due
during the period of imprisonment. Unless otherwise directed by the court, the probation officer, or the United States attorney, all criminal monetary
penalties, except those payments made through the Federal Bureau of Prisons’ Inmate Financial Responsibility Program, shall be made to U.S. District
Court, 800 Market St., Suite 130, Knoxville, TN 37902. Payments shall be in the form of a check or a money order, made payable to U.S. District
Court, with a notation of the case number including defendant number.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

[]

Joint and Several
Defendant Name, Case Number, and Joint and Several Amount:

[]

The defendant shall pay the cost of prosecution.

[]

The defendant shall pay the following court cost(s):

[T] The defendant shall forfeit the defendant’s interest in the following property to the United States:
$2,600,000 in United States currency

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal, (5) community
restitution, (6) fine interest (7) penalties, and (8) costs, including cost of prosecution and court costs.

Case 3:05-cr-00148-TWP-HBG Document 574 Filed 03/05/10 Page 7 of 7 PageID #: 4121

7

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TENNESSEE
AT KNOXVILLE
UNITED STATES OF AMERICA
v.
VICENTE CORONA

)
)
)
)
)

No. 3:05-CR-148

MEMORANDUM AND ORDER
In March 2010, the Honorable Thomas W. Phillips sentenced the defendant to an
enhanced statutory minimum sentence of life imprisonment for controlled substance and
money laundering offenses. The defendant is presently housed at FCI Victorville Medium
I. See Bureau of Prisons, https://www.bop.gov/inmateloc/ (last visited Nov. 3, 2020).
Now before the Court is the defendant’s counseled motion for compassionate
release pursuant to 18 U.S.C. § 3582(c)(1)(A)(i). [Doc. 638]. The United States has
responded in opposition to the motion, and the defendant has submitted a reply. [Docs.
642, 643]. For the reasons that follow, the motion will be denied.
I.

BACKGROUND

The defendant brings his motion for compassionate release under 18 U.S.C. §
3582(c)(1)(A)(i), as amended by the First Step Act of 2018. In support, he cites the
COVID-19 pandemic, his age (51), his rehabilitative efforts and family support, and the
possibility that he would receive a lesser term of imprisonment if sentenced today under
current law.

Case 3:05-cr-00148-RLJ-HBG Document 645 Filed 11/05/20 Page 1 of 8 PageID #: 4591

8

II.

DISCUSSION

Section 3582(c)(1)(A)(i) allows district courts to consider prisoner motions for
sentence reduction upon a finding of “extraordinary and compelling reasons.” That statute,
as amended by the First Step Act of 2018, provides in relevant part:
[T]he court, upon motion of the Director of the Bureau of Prisons [“BOP”], or
upon motion of the defendant after the defendant has fully exhausted all
administrative rights to appeal a failure of the Bureau of Prisons to bring a
motion on the defendant’s behalf or the lapse of 30 days from the receipt of
such a request by the warden of the defendant’s facility, whichever is earlier,
may reduce the term of imprisonment (and may impose a term of probation or
supervised release with or without conditions that does not exceed the unserved
portion of the original term of imprisonment), after considering the factors set
forth in section 3553(a) to the extent that they are applicable, if it finds that—
(i) extraordinary and compelling reasons warrant such a reduction ... and
that such a reduction is consistent with applicable policy statements issued
by the Sentencing Commission....
18 U.S.C. § 3582(c)(1)(A). Prior to the First Step Act, a motion for compassionate release
could only be brought by the BOP Director, not a defendant.

See 18 U.S.C. §

3582(c)(1)(A) (2017). The First Step Act amended § 3582(c)(1)(A) to allow a defendant
to file a motion for compassionate release after first asking the BOP to file such a motion
on his behalf. See, e.g., United States v. Alam, 960 F.3d 831, 832 (6th Cir. 2020). Beyond
this change, the statute still applies the same requirements to a defendant’s motion for
compassionate release as previously applied to motions by the BOP Director. See, e.g.,
United States v. Beck, 425 F. Supp. 3d 573, 578-79 (M.D.N.C. 2019).
The United States Sentencing Commission has promulgated a policy statement
regarding compassionate release under § 3582(c), which is found at U.S.S.G. § 1B1.13 and
the accompanying application notes. See United States v. McGraw, No. 2:02-cr-00018-

Case 3:05-cr-00148-RLJ-HBG Document 645 Filed 11/05/20 Page 2 of 8 PageID #: 4592

9

LJM-CMM, 2019 WL 2059488, at *3 (S.D. Ind. May 9, 2019). While that particular policy
statement has not yet been updated to reflect that defendants (and not just the BOP) may
move for compassionate release, courts have universally turned to U.S.S.G. § 1B1.13 to
provide guidance on the “extraordinary and compelling reasons” that may warrant a
sentence reduction. Id. at *2 (citations omitted).
As provided in § 1B1.13, consistent with the statutory directive in §
3582(c)(1)(A)(i), the compassionate release analysis requires several findings. First, the
Court must address whether “[e]xtraordinary and compelling reasons warrant the
reduction” and whether the reduction is otherwise “consistent with this policy statement.”
U.S.S.G. § 1B1.13(1)(A), (3). If the movant clears that hurdle, the Court must determine
whether he or she is “a danger to the safety of any other person or to the community, as
provided in 18 U.S.C. § 3142(g).” U.S.S.G. § 1B1.13(2). If not, then the Court must
consider the § 3553(a) factors, “to the extent they are applicable.” U.S.S.G. § 1B1.13.
A. Exhaustion
In this case, the record demonstrates that the defendant has previously asked the
BOP to file a compassionate relief motion on his behalf. [Doc. 638, ex. 1]. Thirty days
have passed since that request was received by the warden of his facility. [Id.]. The Court
thus has authority under § 3582(c)(1)(A) to address the instant motion. See Alam, 960 F.3d
at 832.
Nonetheless, citing district court authority from outside this circuit, the United
States argues that the Court is barred from considering most of the defendant’s arguments
because he did not expressly raise them in his request to the BOP. [Doc. 642, p. 11]. For

10

Case 3:05-cr-00148-RLJ-HBG Document 645 Filed 11/05/20 Page 3 of 8 PageID #: 4593

purposes of the present motion, the Court will presume that it indeed has authority to
consider all of the arguments presented here because, in any event, those arguments do not
amount to “extraordinary and compelling reasons” for compassionate release.
B. Merits
1. Extraordinary and Compelling Reasons
The Application Notes to guideline 1B1.13 provide, in material part:
1. Extraordinary and Compelling Reasons.— ... [E]xtraordinary and
compelling reasons exist under any of the circumstances set forth below:
(A) Medical Condition of the Defendant.—
(i)

The defendant is suffering from a terminal illness (i.e., a serious and
advanced illness with an end of life trajectory). A specific prognosis
of life expectancy (i.e., a probability of death within a specific time
period) is not required. Examples include metastatic solid-tumor
cancer, amyotrophic lateral sclerosis (ALS), end-stage organ disease,
and advanced dementia.

(ii)

The defendant is—
(I)

suffering from a serious physical or medical condition,

(II)

suffering from a serious functional or cognitive impairment, or

(III)

experiencing deteriorating physical or mental health because of
the aging process,

that substantially diminishes the ability of the defendant to provide self-care
within the environment of a correctional facility and from which he or she is
not expected to recover.
(B) Age of the Defendant. —
The defendant (i) is at least 65 years old; (ii) is experiencing a serious
deterioration in physical or mental health because of the aging process;
and (iii) has served at least 10 years or 75 percent of his or her term of
imprisonment, whichever is less.

11

Case 3:05-cr-00148-RLJ-HBG Document 645 Filed 11/05/20 Page 4 of 8 PageID #: 4594

(C) Family Circumstances. —
(i) The death or incapacitation of the caregiver of the defendant’s
minor child or minor children.
(ii) The incapacitation of the defendant’s spouse or registered partner
when the defendant would be the only available caregiver for the
spouse or registered partner.
(D) Other Reasons.— As determined by the Director of the Bureau of Prisons,
there exists in the defendant’s case an extraordinary and compelling reason
other than, or in combination with, the reasons described in subdivisions (A)
through (C).
U.S.S.G. § 1B1.13 cmt. n.1.
The defendant’s motion touches on subsections (A)(ii) through (D). He discusses the
COVID-19 pandemic, his age (51), his rehabilitative efforts and family support, and the
possibility that he would receive a lesser term of imprisonment if sentenced under current
law.
The Court finds that subsection (A)(ii) is not satisfied in this case. The record before
the Court contains no supporting documentation as to the severity of any medical conditions
or their impact on the defendant’s present functioning. His age is by no means extraordinary,
and the BOP SENTRY Report shows that he is categorized as Care Level 1. “Care Level 1
inmates are less than 70 years of age and are generally healthy. They may have limited
medical needs that can be easily managed by clinician evaluations every 6 to 12 months.”
See http://www.bop.gov/resources/pdfs/care_level_classification_guide.pdf (last visited
Nov. 3, 2020). The Court therefore does not find that the defendant’s health substantially
diminishes his ability to provide self-care within the prison environment, as required by
guideline 1B1.13’s policy statement.

12

Case 3:05-cr-00148-RLJ-HBG Document 645 Filed 11/05/20 Page 5 of 8 PageID #: 4595

Further, the COVID-19 pandemic is a concern for all inmates and does not alone
constitute an “extraordinary and compelling reason” for release. See, e.g., United States v.
Bolze, No. 3:09-CR-93-TAV-CCS-1, 2020 WL 2521273, at *7 (E.D. Tenn. May 13, 2020)
“([T]he COVID-19 pandemic cannot present an extraordinary and compelling reason alone
because the policy statement directs courts to consider individual reasons for compassionate
release, not general threats to the prison population.”) (citations omitted). 1
The defendant’s age plainly does not satisfy subsection (B), which applies only to
persons age 65 or older. Similarly, his family support [doc. 638, ex. 4], while appreciated,
is not the sort of family circumstance contemplated by subsection (C).
That leaves subsection (D) (“there exists in the defendant’s case an extraordinary and
compelling reason other than, or in combination with, the reasons described in subdivisions
(A) through (C)”). Whether, under this subsection, “district courts may find additional and
extraordinary reasons other than those in the commentary” or whether “the note’s catchall
[subsection (D)] delegates to the Bureau of Prisons (not the courts) the task of identifying
other reasons” remains an open question in this circuit. United States v. Ruffin, ___ F.3d
___, No. 20-5748, 2020 WL 6268582, at * 5-7 (6th Cir. Oct. 26, 2020) (emphasis added);
compare also United States v. Young, No. 2:00-cr-00002-1, 2020 WL 1047815, at *6 (M.D.
Tenn. Mar. 4, 2020) (subsection (D) may be employed by the BOP or by the courts), with
United States v. Bolze, No. 3:09-CR-93-TAV-CCS-1, 2020 WL 2521273, at *7 (E.D. Tenn.
May 13, 2020) (BOP only). This Court need not enter into that dispute today because the

1

The instant defendant tested positive for COVID-19 in late July 2020. [Doc. 642, ex. 3]. As of August 12,
2020, he was noted to have recovered. [Id., ex. 2].

13

Case 3:05-cr-00148-RLJ-HBG Document 645 Filed 11/05/20 Page 6 of 8 PageID #: 4596

justifications offered by the defendant, taken together, do not constitute “extraordinary and
compelling reasons” for compassionate release.
Being 51 may well place one in greater danger of harm from COVID-19 than being
21 or 31, and the defendant’s family support—as noted—is a good thing. These facts,
however, are not remarkably outside the norm.
Next, the defendant’s SENTRY Report shows participation in educational and
vocational programming, and his two disciplinary infractions during the current
imprisonment were not serious. However, “rehabilitation of the defendant is not, by itself,
an extraordinary and compelling reason[.]” U.S.S.G. § 1B1.13 cmt. n.3.
Lastly, the defendant’s argument regarding the sentence he might receive today is a
reference to Section 401(a)(1) and (a)(2) of the First Step Act. Those sections, respectively,
redefine the types of prior convictions that can be used to enhance a defendant’s sentence
under 21 U.S.C. § 851 and they reduce the enhanced mandatory minimum sentences for
certain controlled substance offenses.
However, pursuant to section 401(c) of the First Step Act, Section 401 applies only
to persons who had not yet been sentenced as of December 21, 2018. See 132 Stat. 5194,
5221. The instant defendant was sentenced in 2010, more than eight years before the First
Step Act became law. Section 401 of the First Step Act therefore does not apply to him, and
this Court will not use guideline subsection (D) to circumvent Congress’s express intent.
See, e.g., United States v. Cisneros, CR. NO. 99-00107 SOM, 2020 WL 3065103, at *3 (D.
Haw. June 9, 2020) (“[T]his court hesitates to conclude that it should reduce Cisneros's
sentence solely on the ground that the change in the law constitutes an extraordinary and

14

Case 3:05-cr-00148-RLJ-HBG Document 645 Filed 11/05/20 Page 7 of 8 PageID #: 4597

compelling circumstance. Otherwise, every inmate who might receive a reduced sentence
today would be eligible for compassionate release, and Congress's decision not to make the
First Step Act retroactive would be meaningless.”).
Having considered the issues raised by the defendant, individually and in combination,
the Court does not find extraordinary and compelling reasons justifying the requested
compassionate release.
III.

CONCLUSION

The Court genuinely sympathizes with several of the arguments presented by the
defendant. However, in light of the pertinent legal authority and the present record, the
defendant’s motion to reduce sentence pursuant to 18 U.S.C. § 3582(c)(1)(A)(i) [doc. 638]
must be and is DENIED.
IT IS SO ORDERED.
ENTER:

s/ Leon Jordan
United States District Judge

15

Case 3:05-cr-00148-RLJ-HBG Document 645 Filed 11/05/20 Page 8 of 8 PageID #: 4598

Case: 20-6309

Document: 10-2

Filed: 06/08/2021

Page: 1

NOT RECOMMENDED FOR PUBLICATION
File Name: 21a0282n.06
No. 20-6309

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
VICENTE CORONA,
Defendant-Appellant.

BEFORE:

)
)
)
)
)
)
)
)
)
)

FILED
Jun 08, 2021
DEBORAH S. HUNT, Clerk
ON APPEAL FROM THE
UNITED STATES DISTRICT
COURT FOR THE EASTERN
DISTRICT OF TENNESSEE

SUTTON, Chief Judge; SUHRHEINRICH and NALBANDIAN, Circuit Judges.

SUHRHEINRICH, Circuit Judge. A jury convicted Vicente Corona of narcotics and
money laundering conspiracies. He now seeks a sentence reduction under the “compassionate
release” statute, 18 U.S.C. § 3582(c)(1)(A). The district court denied his request, concluding that
Corona had not established any extraordinary and compelling reasons for compassionate release.
We affirm.
In 2008, a jury found Corona guilty of conspiracy to transport cocaine and marijuana,
conspiracy to commit money laundering and aiding and abetting others in distributing five or more
kilograms of cocaine on three separate occasions. See United States v. Corona, 493 F. App’x 645,
647 (6th Cir. 2012). Because he had three prior felony convictions, the district court enhanced his
sentence under 21 U.S.C. §§ 851 and 841(b)(1)(A), from 360 months to life imprisonment. We
affirmed Corona’s conviction and sentence. Id. at 659.

16

Case: 20-6309

Document: 10-2

Filed: 06/08/2021

Page: 2

In December 2018, Congress enacted the First Step Act. See Pub. L. No. 115-391, 132
Stat. 5194. Section 401 of the Act reduced the enhanced mandatory minimum sentences for certain
controlled substance offenses. 132 Stat. at 5220–21. Prior to 2018, a violation of § 841(b)(1)(A)
carried a mandatory minimum sentence of twenty years if a prior conviction was for a “felony drug
offense.” 21 U.S.C. § 841(b)(1)(A) (pre-2018 provision). Section 401 reduced the mandatory
minimum to fifteen years, and only if the prior offense was a “serious drug felony.” Id. (current
version). However, Congress did not extend this change to a defendant sentenced before the First
Step Act’s enactment. The Act explicitly states that § 401 applies only to defendants sentenced
after the Act’s passage. United States v. Tomes, 990 F.3d 500, 505 (6th Cir. 2021); 132 Stat. at
5221.
In July 2020, Corona filed a motion for compassionate release under § 3582(c)(1)(A),
which allows a district court to reduce a defendant’s sentence if “extraordinary and compelling
reasons” exist and the 18 U.S.C. § 3553(a) factors also justify a sentencing reduction. United
States v. Hampton, 985 F.3d 530, 531 (6th Cir. 2021). In support of the motion Corona cited a
COVID-19 outbreak at his prison facility, his age, rehabilitative efforts, family support, and
§ 401’s reduction of mandatory minimums for certain drug offenses. As to the final factor, Corona
argued that two of his three prior drug felony convictions would not qualify as a “serious drug
felony” under § 401 because for those two offenses he had not “served a term of imprisonment of
more than 12 months.” See 21 U.S.C. § 802(57).
After considering the factors “individually and in combination” the district court concluded
that Corona had not proven any extraordinary and compelling reasons to warrant a compassionate
release and denied the motion. Applying the application notes for USSG § 1B1.13,1 the court held

1

At the time the district court issued its decision, it was unclear whether the court was bound by the Sentencing
Guidelines’ definition of “extraordinary and compelling reasons.” We resolved that question in United States v. Elias,

17

Case: 20-6309

Document: 10-2

Filed: 06/08/2021

Page: 3

that Corona had not offered any documentation to substantiate the severity of any medical
conditions; his age (51) was not considered extraordinary under the guideline, which applies only
to persons 65 and older; and his family support was positive and not like the dire circumstances
envisioned by the guideline. As to the § 401 factor, the court held § 401 did not apply to Corona
because he was sentenced eight years before the First Step Act was passed. And to characterize
the change in law as an extraordinary and compelling circumstance would “circumvent Congress’s
express intent.”
Corona stays the course on appeal, arguing that the aforementioned factors “collectively
provide extraordinary and compelling reasons to reduce” his life sentence.
Corona’s argument is foreclosed by our recent decisions in Tomes and United States v.
Jarvis, --- F.3d ----, 2021 WL 2253235 (6th Cir. June 3, 2021). The defendant in Tomes asserted
that “the presence of COVID-19 in prisons, coupled with his increased susceptibility to serious
illness from the virus because of [his] chronic asthma” constituted “extraordinary and compelling
reasons” for a reduced sentence.

Tomes, 990 F.3d at 501.

He further claimed that “his

rehabilitation, strong family support, and apparently inequitable sentence were extraordinary and
compelling reasons for release.” Id. at 502. He explained that if the First Step Act applied, his
prior state convictions for trafficking in cocaine would not qualify as “serious drug felonies” and
that the mandatory floor would therefore no longer have applied to him, resulting in a lower
sentence. Id. at 505. The district court held that the defendant had failed to substantiate his medical
condition claims. Id. The court also rejected Tomes’s assertion that his rehabilitation, family

holding that district courts have full discretion to define the term without consulting the USSG § 1B1.13. 984 F.3d
516, 519–20 (6th Cir. 2021).

18

Case: 20-6309

Document: 10-2

Filed: 06/08/2021

Page: 4

circumstances, and sentence, even when considered holistically, were extraordinary and
compelling. Id. at 502.2
This court affirmed the district court’s rejection of the defendant’s chronic asthma and
prison conditions argument. Id. at 504–05. We also held that the non-retroactive First Step Act
amendment does not constitute an “extraordinary and compelling” reason to justify a sentence
reduction, explaining that “we will not render § 401(c) useless by using § 3582(c)(1)(A) as an end
run around Congress’s careful effort to limit the retroactivity of the First Step Act’s reforms.” Id.
at 505.

We therefore affirmed the district court’s denial of the defendant’s motion for

compassionate release. Id.
Jarvis involved similar issues. There, Jarvis moved for compassionate release. He argued
that “if he were sentenced for the same offenses today, he would receive a sentence of 25 years,
not 40 years.” 2021 WL 2253235, at *1. In Jarvis’s eyes, that fact, combined with COVID-19,
Jarvis’s high blood pressure, and his rehabilitation, amounted to an “extraordinary and compelling
reason” for release. We disagreed. For a district court to consider a disparity arising from a nonretroactive or partially retroactive sentencing change, whether by itself or in combination with
other factors, as part of its inquiry into extraordinary and compelling reasons would end run around
congressional design. Id. at *1–2.
In this case, Corona raises a virtually identical argument to that in Tomes and Jarvis, that
is, the current COVID-19 outbreak in his prison, his age, his rehabilitative efforts, his family
support, and the First Step Act “collectively provide extraordinary and compelling reasons” for
compassionate release. Like the court in Tomes, the district court in this case considered all of the

2

In the lower court Tomes explicitly argued that the sentence disparity, along with his rehabilitative efforts, family
circumstances, and medical conditions “combine to present extraordinary and compelling reasons.” R. 244, United
States v. Hollis, No. 3:16-cr-00113-DJH-HBB-2 (W.D. Ky. May 26, 2020) (emphasis added).

19

Case: 20-6309

Document: 10-2

Filed: 06/08/2021

Page: 5

reasons presented by Corona, and concluded that none of them, individually or collectively,
created extraordinary and compelling reasons warranting compassionate release. Thus, the district
court did not abuse its discretion in finding no extraordinary and compelling reasons existed.
Tomes, 990 F.3d at 504–05; see also United States v. Wills, --- F.3d ---, No. 20-6142, 2021 WL
1940430, at *2 (6th Cir. May 14, 2021) (affirming the district court’s denial of compassionate
release when it declined to circumvent Congress’s expressed intent to consider the sentencing
disparity as extraordinary and compelling).
Another recent decision of this court does not alter this conclusion. See United States v.
Owens, No. 20-2139, 2021 WL 1811538 (6th Cir. May 6, 2021). Although acknowledging
Tomes’s holding that a non-retroactive amendment does not qualify as an extraordinary and
compelling reason for a sentence reduction, the Owens majority nonetheless states that a district
court may still consider First Step Act arguments in combination with other factors that may
constitute extraordinary and compelling reasons for compassionate release. Id. at *7. As we
recognized in Jarvis, this conclusion cannot be squared with Tomes, where like Corona, the
defendant bundled his age, his rehabilitation efforts, and strong family ties to his First Step Act
argument. Tomes, 990 F.3d at 502; see Jarvis, 2021 WL 2253235, at *3–4. As noted in Tomes,
such a back door attempt to reintroduce an expressly excluded factor thwarts congressional intent
in making the First Step Act non-retroactive. Tomes, 990 F.3d at 505. We therefore decline, as
we must, to follow Owens because Tomes was decided first and therefore controls. See Jarvis,
2021 WL 2253235, at *4; see also Salmi v. Sec’y of Health & Hum. Servs., 774 F.2d 685, 689 (6th
Cir. 1985) (holding that one panel of this court cannot overrule the decision of another panel absent
an intervening Supreme Court decision or en banc consideration).

20

Case: 20-6309

Document: 10-2

Filed: 06/08/2021

Page: 6

We end our analysis here. See United States v. Elias, 984 F.3d 516, 519 (6th Cir. 2021)
(clarifying that “district courts may deny compassionate-release motions when any of the three
prerequisites listed in § 3582(c)(1)(A) is lacking and do not need to address the others”); see also
United States v. Ruffin, 978 F.3d 1000, 1005 (6th Cir. 2020) (noting that the district court has
“substantial discretion” in weighing the § 3582(c)(1)(A) factors).
We affirm.

21

